              Sea Studios Foundation
                 810 Cannery Row
             Monterey, California 93940
    National Science Foundation Award Numbers
                   ESI-9814957
                   ESI-0206411
             Audit of Financial Schedules
                         and
           Independent Auditors’ Reports
For the Period February 1, 1999 to September 30, 2003




                                        CONRAD AND ASSOCIATES, L.L.P.
                                              Certified Public Accountants
                                                1100 Main Street, Suite C
                                                   Irvine, California 92614
                FOR OFFICIAL USE ONLY

             REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL
BY THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY
EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING OR
ADMINISTERING NSF AWARDS. THE INFORMATION IN THIS
REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY NOT
BE USED FOR PURPOSES OTHER THAN ORIGINALLY INTENDED
WITHOUT PRIOR CONCURRENCE FROM THE NSF OFFICE OF
INSPECTOR GENERAL.
                                                         Sea Studios Foundation
                                                            810 Cannery Row
                                                        Monterey, California 93940




                                                               Table of Contents

                                                                                                                                                     Page

Executive Summary:
  Background .....................................................................................................................................     1
  Audit Objectives, Scope, and Methodology ....................................................................................                        2
  Summary of Audit Results................................................................................................................             3
  Exit Conference................................................................................................................................      3

Findings and Recommendations:
   Independent Auditors’ Report on Compliance with Laws and Regulations
   and Internal Control Over Financial Reporting.................................................................................                      4

Financial Schedules:
   Independent Auditors’ Report on Financial Schedules ...................................................................                            10
   Schedule A-1 Schedule of Award Costs (Award No. ESI-9814957) ..............................................                                        12
   Schedule B-1 Schedule of Questioned Costs (Award No. ESI-9814957) .....................................                                            13
   Schedule A-2 Schedule of Award Costs (Award No. ESI-0206411) ..............................................                                        15
   Schedule B-2 Schedule of Questioned Costs (Award No. ESI-0206411) .....................................                                            16
   Schedule C-1 Summary Schedules of Awards Audited and Audit Results....................................                                             17
   Notes to Financial Schedules ..........................................................................................................            18

Appendix A - Awardee’s Comments to Report
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
(Continued)


AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

At the request of the NSF Office of the Inspector General (OIG), Conrad and Associates, L.L.P,
conducted an audit of NSF awards granted to SSF. During the period of our audit there were two NSF
awards: ESI-9814957 – The Shape of Life and ESI-0206411 – The Living Machine. Our audit objectives
were to:

    1. Determine whether the Schedules of Award Costs of SSF present fairly, in all material respects,
       the cost claimed on the Federal Cash Transaction Reports (FCTR) - Federal Share of Net
       Disbursements and that the costs claimed are in conformity with the terms and conditions of the
       NSF awards.

    2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions
       of the award agreements pertaining to NSF awards and weaknesses in SSF’s internal control
       over financial reporting that could have a direct and material effect on the Schedule of Award
       Costs.

To accomplish the objectives of the audit, we:

    •   Prepared a survey and internal control audit planning document that included the proposed audit
        program and sampling methodology for performing the audit survey, gaining an understanding of
        the grantee’s policies and procedures and financial systems for administering its NSF awards,
        identifying risks in the grantee’s operations for effectively administering its NSF awards, and
        testing the grantee’s significant internal controls to determine whether those controls are
        operating effectively to mitigate the identified risk.

    •   Prepared a survey and internal control assessment report that included a summary of the results
        of the on-site audit survey and testing of significant internal controls.

    •   Prepared a substantive audit testing planning document that included the proposed audit program
        including sections on tests of compliance with applicable laws and regulations, and substantive
        testing procedures to determine whether costs charged to the NSF award(s) by the awardee are
        allowable, allocable, and reasonable in accordance with the applicable Federal cost principles
        and award terms and conditions.

    •   Prepared Notification of Findings (NOFs) based on the results of audit fieldwork. The NOFs
        included detailed information on each finding identified.

Our audit was conducted in accordance with auditing standards generally accepted in the United States
of America and the Government Auditing Standards (1994 Revision) issued by the Comptroller General of
the United States of America.




                                                   2
National Science Foundation
Office of Inspector General
(Continued)


SUMMARY OF AUDIT RESULTS

Our audit found that SSF needs to improve its internal controls for ensuring that costs of goods and
services charged to NSF awards are allowable and in accordance with the applicable cost principles.
Specifically, SSF did not have written procedures for determining the reasonableness, allocability and
allowability of costs in accordance with the provisions of the applicable Federal cost principles and the
terms and conditions of its NSF awards. For the two awards under audit, SSF claimed $2.9 million of
NSF-funded costs and $4.66 million of cost sharing. Of these amounts, we questioned $25,160 and
$50,829 of NSF-funded costs and cost sharing, respectively, including excessive rental costs.1 Although
questioned costs represent only 1 percent of SSF claimed costs, the lack of written procedures could
affect SSF’s future ability to record, process, summarize and report financial data, and effectively and
efficiently administer grant funds in a manner consistent with NSF and other Federal laws and regulations.

These errors occurred primarily because SSF staff responsible for ensuring the cost of goods and
services charged to NSF awards are allowable did not fully understand the applicable Federal
administrative requirements and cost principles.

To address the identified weaknesses and deficiencies, we recommend that the Directors of NSF's
Division of Acquisition and Cost Support (DACS) and Division of Grants and Agreements (DGA) require
that Sea Studios Foundation develop comprehensive written policies and procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of the applicable
Federal cost principles and the terms and conditions of the award.


EXIT CONFERENCE

An exit conference was held on February 20, 2002 via telephone with the SSF office in Monterey,
California. Findings and recommendations, as well as other observations contained in this report, were
discussed with those attending. SSF was informed that the findings and recommendations were subject
to final review by NSF and that the report may include additional findings and recommendations and/or
omit certain items discussed. Representing SSF were:

        Name                             Title

        XXXXXXXXXX                       XXXXXXXXXXXXXX
        XXXXXXXXXX                       XXXXXXXXXXXXXX
        XXXXXXXXXX                       XXXXXXXXXXXXXX
        XXXXXXXXXX                       XXXXXXXXXXXXXX


Representing Conrad and Associates, L.L.P. was:

        Name                             Title

        XXXXXXXXXXXXX                    XXXXXXXXXXXXXX

1
        The award amounts budgeted, claimed, and questioned are shown in Schedules A-1 and A-2.




                                                     3
FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
(Continued)


To recover a portion of its lease costs, SSI billed SSF monthly for rent based on (1) the square footage
occupied times (2) a rate per square foot (calculated by dividing the total monthly rent by the total square
footage). In addition, a portion of the total square footage was subleased as retail space. The rental
income from the retail space was approximately 92% of the total rent for the facility in its entirety.
However, the rental income was not deducted from the total rent paid prior to calculating a per square
foot rental charge allocated to SSF.

As a result, for both NSF awards under audit, SSI charged SSF rental expense that was in excess of the
amount allowable, i.e., the net rental amount after deducting the rental income earned from leasing its
retail space. We recalculated the rent expense based on the net rent paid by SSI after deducting the
rental income. For award number ESI-0206411, The Living Machine, the recalculation identified claimed
rental costs in excess of allowable rental costs of $29,912. Of this amount, $6,730 was charged to NSF
and is reported as questioned costs in Schedule B-2, and the remaining $23,182 was reported as cost
sharing and is reflected as unallowable cost sharing in this audit report. For award number ESI-9814957,
The Shape of Life, the recalculation resulted in the identification of $30,881 of claimed rental costs in
excess of allowable rental costs. Of this, $12,352 was charged to NSF and is reported as questioned
costs in Schedule B-1 and the remaining $18,529 was reported as cost sharing and is reflected as
unallowable cost sharing in this audit report.

SSF officials believe SSI, a for-profit entity, should be allowed to make a profit on the rental space. They
stated that the rent charged to SSF was very reasonable based on rental rates for similar property.

Recommendation No. 1:

We recommend that NSF’s Directors of DACS and DGA ensure that Sea Studios Foundation implement
procedures to claim only rental expense for its share of the net rent paid by SSI after deducting the rental
income from the retail space.

Awardee’s Comments

SSF does not concur with this finding and recommendation. They indicated that SSF is managed
separate from SSI. The two companies operate consistent with IRS direction regarding allocation of costs
based on actual usage and charges not exceeding fair market value. The rent charged to SSF was below
the average comparative fair market values. (See Appendix A for a complete copy of the response
provided by the Awardee.)

Auditors’ Response

While we do not disagree with SSF’s response regarding following IRS guidelines and FMV, in
accordance with OMB Circular A-122 SSF was limited to their share of the actual rental cost, which was
the rent paid less the rental income received for the retail space.

Finding No. 2: Travel Expense - Sea Studios Foundation Does Not Have a Policy of Using Only
U.S. Air Carriers When Available.

SSF employees are required to travel to international locations in the performance of the NSF awards, so
SSF needs to have a travel policy that complies with NSF requirements. The NSF GC-1 states that “[a]ny
air transportation to, from, between, or within a country other than the U.S. of persons or property, the
expense of which will be assisted by NSF funding, must be performed by or under a code-sharing
arrangement with a U.S.-flag air carrier if service provided by such a carrier is available….” In addition,



                                                     5
National Science Foundation
Office of Inspector General
(Continued)


OMB Circular A-110, which promulgates standards for financial management systems for non-profit
awardees, requires “accounting records…that are supported by source documentation.”

Total foreign travel expenses incurred and billed to NSF for the two awards under audit was $72,250.
During our testing of these travel costs, we noted six trips totaling $15,196 where non-U.S. air carriers
were used. Travel documents provided during the audit did not explain why foreign-flag air carriers were
used, and therefore, SSF was unable to demonstrate compliance with the NSF requirement. Of the
amount tested, $6,078 was charged to NSF and is reported as questioned costs in Schedule B-1, and the
remaining $9,118 was reported as cost sharing and is reflected as unallowable cost sharing in this audit
report. SSF stated that it chose air carriers based on cost and flight timing because it was not aware of
the requirement to use U.S. air carriers in instances where possible.

Recommendation No. 2:

We recommend that NSF’s Directors of DACS and DGA ensure that Sea Studios Foundation implement a
travel policy that complies the Federal regulations and requires the use of U.S. air carriers when possible
in accordance with the Grant General Conditions.

Awardee’s Comments

SFF will take steps to ensure formal documentation of any instances where a foreign-flag air carrier must
be used. (See Appendix A for a complete copy of the response provided by the Awardee.)

Auditors’ Response

The Awardee’s comments appear to be responsive to the finding. In accordance with our audit
recommendation, SFF should implement a travel policy that complies with Federal regulations, and
provide assurance to NSF that the policy has been implemented.


                        INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of SSF is responsible for establishing and maintaining internal control. In fulfilling this
responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute assurance that assets are safeguarded against
loss from unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial schedules in
accordance with accounting principles prescribed by the NSF. Because of inherent limitations in any
internal control, errors or irregularities may nevertheless occur and not be detected. Also, projection of
any evaluation to future periods is subject to the risk that procedures may become inadequate because of
changes in conditions or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 and A-2) for the
period February 1, 1999 to September 30, 2003, we obtained an understanding of SSF’s internal control
over financial reporting. With respect to internal control over financial reporting, we obtained an
understanding of the design of relevant policies and procedures and whether the procedures have been
placed in operation. Furthermore, we assessed control risk in order to determine our auditing procedures



                                                    6
National Science Foundation
Office of Inspector General
(Continued)


for the purpose of expressing our opinion on the financial schedules and not to provide an opinion on
internal control. Accordingly, we do not express such an opinion.

Our consideration of internal control over financial reporting would not necessarily disclose all matters
related to internal control over financial reporting that might be reportable conditions under standards
established by the American Institute of Certified Public Accountants and accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material weaknesses.
Reportable conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of the internal control over financial reporting that, in our judgment, could adversely
affect the entity’s ability to record, process, summarize and report financial data in a manner that is
consistent with the assertions of management in the financial schedule. A material weakness is a
reportable condition in which the design or operation of one or more of internal control elements does not
reduce, to a relatively low level, the risk that misstatements in amounts that would be material in relation
to the financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent limitations in
internal control, misstatements due to error or fraud may nevertheless occur and not be detected.

We noted the following matters involving SSF’s internal control over financial reporting and its operation
that we consider to be reportable conditions under standards established by the American Institute of
Certified Public Accountants. However, we do not believe that any of the reportable conditions are
material weaknesses.


Finding No. 3: Consultants – Sea Studios Foundation Does Not Have Adequate Policies and
Procedures to Identify Consultants.

NSF normally expects awardees to use their own staff to carry out award activities. However, according
to SSF, most film producers hire independent contractors and consultants for specific projects because
they cannot afford to have permanent staff on their payroll when they do not have a production in
progress.

For the two awards under audit, SSF utilized both independent contractors to carry out award activities
and consultants who provided professional advice or services. Examples of staff hired as contractors and
consultants included producers, editors, writers, camera, sound, and lighting specialists, and accountants.
Total expense for independent contractors and consultants billed to NSF was approximately $983,300 out
of the total claimed costs of $2.98 million.

SSF did not have written procedures for distinguishing between contractors and consultants, classifying
all externally-hired personnel as independent contractors. It is important to distinguish between
contractors and consultants because NSF grant conditions set specific limits on the daily rate of pay to
consultants, which are not applicable to contractors who carry out award activity. NSF’s GC-1 states
“[p]ayments to individuals for consultant services under this grant shall not exceed the daily equivalent of
the then current maximum rate paid to an Executive Schedule Level IV Federal employee (exclusive of
indirect cost, travel, per diem, clerical services, fringe benefits and supplies).

All of the independent contractors and consultants with material amounts charged to the awards under
audit were included in our audit sample and we tested approximately 22% of the total individual
payments. During the audit SSF formulated a policy clarifying the parameters for utilizing independent



                                                     7
National Science Foundation
Office of Inspector General
(Continued)

contractors, outside consultants and employees in the fulfillment of its mission. We applied these
parameters of this policy in testing for excessive consultant payments and did not find any. Nevertheless,
as noted above, NSF has a requirement that payments for consultant services not exceed a maximum
daily rate. If not specifically distinguished otherwise, the potential exists for Sea Studios to pay
consultants above the maximum daily rate allowed by NSF.

Recommendation No. 3:

We recommend that NSF’s Directors of DACS and DGA ensure that Sea Studios Foundation finalize its
policy regarding the identification of consultants versus independent contractors, submit it to NSF for
review and approval, formally adopt it, and follow it to distinguish all contractors utilized as consultants or
independent contractors.

Awardee’s Comments

SFF concurs with the finding and recommendation. (See Appendix A for a complete copy of the response
provided by the Awardee.)

Auditors’ Response

The Awardee’s comments appear to be responsive to the finding. In accordance with our audit
recommendation, SFF should finalize its policy, submit it to NSF for its review and approval, and provide
assurance to NSF that the policy has been implemented.

Finding No. 4: Inadequate Procedures Related to the Allowability of Award Costs

Our audit identified a significant weakness in SSF’s process for administering its NSF awards. In
particular, SSF did not have written procedures for determining the reasonableness, allocability and
allowability of costs in accordance with the provisions of the applicable Federal cost principles and the
terms and conditions of its NSF awards. Written procedures would provide a greater degree of continuity
and guidance during the review and approval of award costs or in the event of staff turnover.

As a result, we identified questioned costs and unallowable cost sharing totaling $75,989 related to
excessive rental charges and unjustified foreign flag carrier costs. In addition, SSF did not have a
process, written or otherwise, that differentiated between independent contractors serving as personnel
and consultants who provide professional advice or services. This distinction is important because NSF
sets specific limits on the daily rate of pay to consultants, which are not applicable to independent
contractors.

Due to the size of the organization and the level of informality, formal written procedures had not been
developed because SSF personnel were relying on the availability of the appropriate OMB Circulars.

Recommendation No. 4:

We recommend that the Directors of DACS and DGA require that SSF develop written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the provisions of
the applicable Federal cost principles and the terms and conditions of its NSF awards.




                                                      8
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                             Schedule A-1

                                          Sea Studios Foundation
                            National Science Foundation Award No. ESI – 9814957
                                           Schedule of Award Costs
                                  From February 1, 1999 to January 31, 2002
                                                    Final




                                                               (A)
                                           Approved          Claimed         Questioned        Schedule
   Cost Category                            Budget            Costs            Costs           Reference

Direct costs:
  Salaries and wages                    $XXXXXXX           $XXXXXXX            $     -
  Fringe benefits                         XXXXXX             XXXXXX                  -
  Equipment                               XXXXXX             XXXXXX
  Travel - Domestic                       XXXXXX             XXXXXX                  -
           Foreign                        XXXXXX             XXXXXX                 6,078        B-1a

Other direct costs:
 Materials and supplies                  XXXXXXX           XXXXXXX                  -
 Publication costs                        XXXXXX            XXXXXX                  -
 Consultant services                      XXXXXX            XXXXXX                  -
 Computer services                         XXXXX             XXXXX                  -
 Subcontracts                              XXXXX               -                    -
 Other                                    XXXXXX            XXXXXX                12,352         B-1b

      Total direct costs                  2,977,891         2,960,375             18,430

Indirect costs                               90,652            72,522               -

      Total costs                        $3,068,543        $3,032,897         $18,430

Less costs not billed (B)                     -              300,040                -

      Total costs billed                 $3,068,543        $2,732,857         $18,430

Cost sharing                             $3,800,429        $4,069,320         $     -



(A)   The total claimed costs agree with the total expenditures reported by SSF on the Federal Cash
      Transactions Report - Federal Share of Net Disbursements as of the quarter ending June 30, 2003.
      Claimed costs reported above are taken directly from the awardee’s books of accounts.

(B)   Costs incurred in excess of the grant budget amount per year were not billed to NSF.




                               See accompanying notes to this financial schedule.

                                                      12
                                                                                             Schedule B-1
                                      Sea Studios Foundation
                        National Science Foundation Award No. ESI – 9814957
                                    Schedule of Questioned Costs
                              From February 1, 1999 to January 31, 2002




Note B-1a Non-U.S. Air Carriers Utilized

           As indicated in Compliance Finding No. 2, NSF has a requirement that grantees use U.S. air
           carriers when service provided by such a carrier is available. During our testing of travel
           costs, we noted three sample items for airfare involving six trips where non-U.S. air carriers
           were used when U.S. air carriers were available with no justification indicated. The total
           amount charged to NSF for foreign airfare was approximately $34,500. Our sample size of
           $16,996 for NSF share of foreign travel revealed the $6,078 of questioned costs as indicated
           below. However, because the sample was judgmentally selected it is not possible to project
           such costs to total costs.

           The costs of the six trips where non-U.S. air carriers were used with no justification is as
           follows:

               Airfare for trip to Australia, January, 2000                               $ XXXX
               Airfare for trip to Australia, January, 2000                                 XXXX
               Airfare for trip to Australia, January, 2000                                 XXXX
               Airfare for trip to Australia, January, 2000                                 XXXX
               Airfare for trip to Manado, March, 2000                                      XXXX
               Airfare for trip to Glasgow, March, 2000                                     XXXX

               Total                                                                       $15,196

           NSF share 40%                                                                   $ 6,078
           Cost Share 60%                                                                    9,118


Note B-1b Rent Expense Not Adjusted For Rental Income

           SSI billed SSF monthly for rent based on the direct facilities lease between the two entities.
           The rent per the lease was based on an amount per square foot of direct usage by SSF.
           SSF's rent was calculated based on the total monthly rent divided by the total square footage.
           However, a portion of the total square footage was subleased by SSI as retail space. The
           rent charged to SSF was in excess of the cost per square footage after deducting the rental
           income from the retail space. See Compliance Finding No. 1.

           We recalculated the rent expense for SSF based on the net rent paid by SSI after deducting
           the rental income. This recalculation results in claimed rental costs in excess of allowable
           rental costs of $30,881. Of this amount, $12,352 was charged to NSF and is reported as
           questioned costs. The remaining amount of $18,529 was reported as cost sharing and is
           reflected as non-allowed cost sharing in this audit report. Following is our recalculation of the
           rent expense for the years that rent was charged to the award:




                                                    13
                                                     Schedule B-1, (Continued)




                                           1999        2000          Total

Total SSI rent paid                      XXXXX         XXXXX
Total rental income                      XXXXX         XXXXX
Net rent expense                       $  6,407         6,881

SSF square footage                          1827.5       1827.5
Combined SSF and SSI square footage           2226         2226
Percentage of SSF to total                 82.10%       82.10%

Net rent expense                       $    6,407        6,881
Times SSF percentage                    x 82.10%     x 82.10%
Allowable rent expense for SSF         $    5,260        5,649

Total rent charged                       XXXXX         XXXXX
Less indirect                            XXXXX              -
Total direct                           $ 13,879        27,911

NSF share 40%                          $    5,552       11,164
Cost share 60%                              8,327       16,747

Total direct rent charged              $   13,879       27,911        41,790
Allowable rent expense                      5,260        5,649        10,909
Excess                                 $    8,619       22,262        30,881

NSF Share 40%                          $    3,447        8,905        12,352
Cost Share 60%                              5,172       13,357        18,529




                                  14
                                                                                          Schedule A-2

                                         Sea Studios Foundation
                           National Science Foundation Award No. ESI – 0206411
                                          Schedule of Award Costs
                                From June 15, 2002 to September 30, 2003
                                                  Interim




                                                              (A)
                                          Approved          Claimed         Questioned      Schedule
   Cost Category                           Budget            Costs            Costs         Reference

Direct costs:
  Salaries and wages                   $ XXXXXXX          $XXXXXX            $ -
  Travel - Domestic                        XXXXX            XXXXX              -
           Foreign                         XXXXX              XXX              -

Other direct costs:
 Materials and supplies                  XXXXXXX            XXXXXX                6,730        B-2a
 Publication costs                                             XXX                 -
 Consultant services                        XXXXX           XXXXXX                 -
 Computer services                           XXXX            XXXXX                 -
 Subcontracts                               XXXXX            XXXXX                 -

      Total direct costs                  1,166,817         171,522               6,730

Indirect costs                               75,843           10,450               -

      Total                              $1,242,660        $181,972           $6,730

Cost sharing                             $ 124,267         $591,113          $ -



(A)   The total claimed costs agree with the total expenditures reported by SSF on the Federal Cash
      Report - Federal Share of Net Disbursements as of the quarter ending September 30, 2003.
      Claimed costs reported above are taken directly from the awardee’s books of accounts.




                             See accompanying notes to this financial schedule.

                                                     15
                                                                                                           Schedule B-2

                                    Sea Studios Foundation
                    National Science Foundation Award Number ESI - 0206411
                                  Schedule of Questioned Costs
                           From June 15, 2002 to September 30, 2003




Note B-2a   Rent Expense Not Adjusted For Rental Income

            SSI billed SSF monthly for rent based on the direct usage square feet and the SSF
            portion of the shared facilities. SSF’s rent was calculated based on the total monthly rent
            divided by the total square footage. However, a portion of the total square footage was
            subleased by SSI as retail space. The rental income from the retail space was
            approximately 92% of the total rent paid by SSI. The rental income was not deducted
            from the total rent paid prior to allocating to SSF. See Compliance Finding No. 1.

            We recalculated the rent expense for SSF based on the net rent paid by SSI after
            deducting the rental income. This recalculation results in claimed rental costs in excess of
            allowable rental costs of $29,912. $6,730 was charged to NSF and is reported as
            questioned costs. The remaining amount of $23,182 was reported as cost sharing and is
            reflected as non-allowed cost sharing in this audit report. Following is our recalculation of
            the rent expense:

                                   Per Books                          Per Audit            Amount in
                         Rent         %          Net          Rent       %         Net      Excess of    NSF     Amount        Cost
               Month   Allocated   Allocated    Amount    Allocated   Allocated   Amount      Audit       %      to NSF       Shared


             06/30/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXXX   XXXXXX       XXXXX   XXXXXX       XXXXXX
             07/31/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             08/31/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             09/30/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             10/31/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             11/30/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             12/31/2002 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             01/31/2003 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             02/28/2003 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             03/31/2003 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX
             04/30/2003 XXXXXXX XXXXX          XXXXXXX    XXXXX       XXXXX       XXXXX    XXXXXX       XXXXX   XXXXXX       XXXXXX


            Total                                                                          $29,912.31           $ 6,730.27   $23,182.04




                                                         16
                                                                                       Schedule C-1

                              Sea Studios Foundation
                 Summary Schedules of Awards Audited and Audit Results
                     From June 15, 2002 to September 30, 2003




Summary of Awards Audited

      Award Number                    Award Period                       Audit Period
       ESI-9814957                 02/01/99 – 01/31/02               02/01/99 – 01/31/02
       ESI-0206411                 06/15/02 – 05/31/04               06/15/02 – 09/30/03

      Award Number                   Type of Award                   Award Description
       ESI-9814957                       Grant                        The Shape of Life
       ESI-0206411                       Grant                       The Living Machine


Summary of Questioned and Unresolved Costs by Award

                        Award          Claimed        Questioned        Unsupported
NSF Award Number        Budget          Costs           Costs              Costs
ESI-9814957           $3,068,543      $2,732,857       $18,430             None
ESI-0206411           $1,242,660      $ 181,972        $ 6,730             None
Total                 $4,311,203      $2,914,829       $25,160             None


Summary of Questioned Cost by Explanation

                              Questioned          Internal Control
         Condition            Cost Amount           Weaknesses       Non-Compliance
Rent Expense Overallocated      $19,082                 No                Yes
Non-U.S. Air Carriers           $ 6,078                 No                Yes
Total Questioned Costs          $25,160


Summary of Internal Control Weaknesses and Non-Compliance Issues

                                     Non-Compliance                   Material, Reportable
          Condition                 or Internal Control?                  or Other?
Rent Expense Overallocated           Non-Compliance                       Reportable
Non-U.S. Air Carriers                Non-Compliance                       Reportable
Consultants Not Identified            Internal Control                    Reportable
Inadequate Procedures                 Internal Control                    Reportable
Related to Allowability of
Costs




                                             17
                                       Sea Studios Foundation
                                     Notes to Financial Schedules
                               From June 15, 2002 to September 30, 2003




Note 1:   Summary of Significant Accounting Policies

          Accounting Basis

          The accompanying financial schedules have been prepared in conformity with National Science
          Foundation (NSF) instructions. Schedules A-1 and A-2 have been prepared from the reports
          submitted to NSF and information obtained from the accounting records maintained for the
          grant award by SSF. The basis of accounting utilized in preparation of these reports differs from
          generally accepted accounting principles. The following information summarizes these
          differences:

          A.    Equity

                Under the terms of the award, all funds not expended according to the award agreement
                and budget at the end of the award period are to be returned to NSF. Therefore, the
                awardee does not maintain any equity in the award and any excess cash received from
                NSF over final expenditures is due back to NSF.

          B.    Equipment

                Equipment purchased with NSF funds is charged to expense in the period during which it
                is purchased instead of being recognized as an asset and depreciated over its useful life.
                As a result, the expenses reflected in the statement of award costs include the cost of
                equipment purchased during the period rather than a provision for depreciation, except
                that depreciation expense is reflected on assets purchased with other funds.

                Except for awards with nonstandard terms and conditions, title to equipment under NSF
                awards vests in the recipient, for use in the project or program for which it was acquired,
                as long as it is needed. The recipient may not encumber the property without approval of
                the federal awarding agency, but may use the equipment for its other federally sponsored
                activities, when it is no longer needed for the original project.

          C.    Inventory

                Minor materials and supplies are charged to expense during the period of purchase. As a
                result, no inventory is recognized for these items in the financial schedules.




                                                    18
                                      Sea Studios Foundation
                                    Notes to Financial Schedules
                              From June 15, 2002 to September 30, 2003




Note 2:   NSF Cost Sharing and Matching

          The following represents the cost share requirements and actual cost share as of September
          30, 2003:
                                                                                Actual        Actual
                            Cost           Actual Cost      Unallowable        Allowable    Cost Share
                            Share            Share             Cost               Cost     Over/(Under)
                           Required         Claimed           Share              Share       Required

Award No. ESI-9814957

          Year 1          $1,006,431       $1,230,296        $ 5,172         $1,225,124    $ 218,693
          Year 2           1,690,214        1,803,712         22,475          1,781,237       91,023
          Year 3           1,103,784        1,035,312           -             1,035,312      (68,472)

          Total           $3,800,429       $4,069,320         $27,647        $4,041,673    $ 241,244



Award No. ESI-0206411

          Year 1          $ 124,267        $ 591,113          $23,182         $ 567,931    $ 443,664
          Year 2               -                -                -                 -            -

          Total           $ 124,267        $ 591,113          $23,182         $ 567,931    $ 443,664


Note 3: Indirect Cost Rates

            Award Number      Indirect Cost Rate                     Base
             ESI-9814957         3.2% - 4.2%            NSF Share of Actual Direct Costs
             ESI-0206411             6.5%               NSF Share of Actual Direct Costs




                                                   19
APPENDIX A – AWARDEE’S COMMENTS TO REPORT
 XXXXXXXXXXXXXXXX
 Conrad and Associates, L.L.P.
 2301 Dupont Drive, Suite 200
 Irvine, CA 92612

 Re: NSF Draft Audit Report, your letter dated February 20, 2004

 Dear XXXXXXXX:


We have reviewed your draft report and provide this letter with our responses, as you've
requested.

On page one, under Background, please add Vulcan, Inc. as one of the outside sponsors that we
have received funding from.

Regarding the specific findings (beginning on page 4):

Finding No. 1: Rent Expense


Sea Studios Foundation (SSF) is separate from Sea Studios, Inc. (SSI) and managed accordingly.
The Board of Directors of SSF is independent of the senior operating management team. XXXX
XXXXX, is one of five Board members, XXXXXX is not a Board member. XXXXXXX
receives no compensation from SSI.

In establishing SSF, the Board of Directors was very careful to follow IRS guidelines and
ensure proper "arms-length" transactions and processes. Additionally, although they are
independent entities, the companies operate consistent with IRS direction for Nonprofits acting
as a subsidiary or parent to a for-profit entity.

The IRS direction for resource sharing among two such parties is clear:
   1) Costs shall be allocated based on the actual usage
   2) Charges shall not exceed Fair Market Value

SSI and SSF have structured their space sharing arrangement to reflect actual space utilized
and a below FMV rate. SSF has also benefited from the ability to raise or lower its occupancy
without any notice or penalty. We are attaching our detailed discussion of this item, including the
analysis of fair market rates, to this letter. (This was also provided to you previously.)
Finding No. 2: Travel Expense

We have attempted to comply with the requirements to utilize U.S.-flagged air carriers. All of
our personnel involved in arranging travel are aware of this grant condition. The extensive
international nature of our production work adds scheduling complexity. In the past we did not
keep the level of formal documentation, that we now realize we should have maintained, of
decisions to use other carriers. We will take steps to ensure formal documentation of any instances
where a foreign-flag air carrier must be used.

Finding No. 3: Consultants,

We feel that you have captured the many conversations that were had on this subject well. In
addition, we ask that NSF provide us with their definitions of "independent contractors" and
"consultants" so that we may ensure our formalized policy complies with NSF definitions as well.

Finding No. 4: Inadequate Procedures

As a very small organization, we do not have the staffing or financial resources to implement formal
policies and procedures in the same manner that a large organization does. We do feel that our
staff has worked hard to adhere to both the spirit and letter of the grant conditions. Please note
our comments related to excessive rental charges under Finding No. 1. We will implement
formalized policies from NSF guidelines and OMB circulars as appropriate and cost-effective.

The following are SSF Comments related to the "Notes to Financial Schedules" section of the
report.

Note 1: Summary of Significant Accounting Policies B.
Equipment

SSF capitalized fixed assets purchased for use in the Shape of Life project, and depreciated those
assets over the useful life of the project, January 1999 through March 2001. Depreciation
schedules were provided to the auditors during the course of the audit. Depreciation was based on
monthly calculations, entered as one journal entry at year-end. We can provide duplicate copies of
this material if needed.

Note 2: NSF Cost Sharing and Matching

The Award No. ESI-9814957 table has some misleading information in it, when taken out of
context. In Year 2 and Year 3, the actual cost-sharing requirement was less due to underspending
in the publicity category, and does not include the authorized "look-back" calculation of
actual costs.




                                                                                                2
We are attaching worksheets that show these adjustments to this document. These worksheets were
also provided during the audit.

Conclusion

Sea Studios Foundation is grateful to the National Science Foundation for its support. We work
hard to ensure that our projects are managed professionally and thoroughly. We also take pride in
our ability to help our partners exceed their expectations in furthering their goals through our
work. We hope that when evaluating the items identified as part of the audit process, our
organization size and market niche will become factors in the overall appraisal of our success.

Please do not hestitate to contact us if your have any questions or require additional
information.


Sincerely



XXXXXXXXXXX
XXXXXXXXXXX

Cc: Sea Studios Foundation Board of Directors




                                                                                                    33
Rental of Office Space to Seas Studios Foundation (SSF)

Sea Studios Foundation (SSF) is separate from Sea Studios, Inc. (SSI) and managed accordingly. In
establishing SSF, the Board of Directors was very careful to follow IRS guidelines and ensure proper
"arms-length" transactions and processes. Additionally, although they are independent entities, the
companies operate consistent with IRS direction for Nonprofits acting as a subsidiary or parent to a
for-profit entity.

The IRS direction for resource sharing among two such parties is clear:
  3) Costs shall be allocated based on the actual usage
  4) Charges shall not exceed Fair Market Value

SSI and SSF have structured their space sharing arrangement to reflect actual space utilized and a
below FMV rate. SSF has also benefited from the ability to raise or lower its occupancy without
any notice or penalty.

More details about the facility arrangements are provided below.

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXX.

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXX

It is the position of Seas Studios, Inc., a for-profit entity, that it is entitled to seek profit from the
utilization of the assets of the S-corporation, including the master lease on the facility. Rental
income received from the retail store had been negotiated based on the fair market values for retail
space in the area. Sea Studios, Inc. has had this sublease agreement since July 1, 1992, and has
always considered this a profit generating activity.
This activity is not associated with Sea Studios Foundation in any way and the Foundation is not
entitled to any of the profits from rental to the retail store.

Certain shareholders of Sea Studios, Inc. do have related party interest in Sea Studios Foundation.
XXXXXXXXXXXXXX, a shareholder of Sea Studios, Inc. is an officer of the Board. XXX


                                                                                                             4
XXXX does not receive any compensation from the SSF. XXXXXXX, a shareholder of Sea
Studios, Inc. has been contracted through Seas Studios, Inc., to receive compensation
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXX. All other board members of Sea Studios Foundation are not
shareholders of Sea Studios, Inc. and have no related party interests in Sea Studios, Inc.

The Foundation Board of Directors has been aware of these related party interests, and has always
taken steps in directing management and staff of the Foundation to ensure that the management
and administrative contracts, occupancy and other related transactions with Sea Studios, Inc. are
reasonable, consistent with legal guidelines, and that amounts paid are comparable to fair market
values, rates and norms for the video production industry.

In developing the rental charge to SSF, the comparative fair market values of office space in the area were
solicited and reviewed. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX


As a result of the comparative review of rents in .this area, it was determined that the per square
footage rate of XXXXXXXXXXXXXXX and subsequent cost of living increases to the current
rate of XXXX was well below the average comparative fair market rent values, and therefore an
extremely reasonable amount to pay for rent. (Also consistent with IRS guidelines for determining
reasonableness.)

In determining the estimate of space utilized by Sea Studios Foundation and Sea Studios, Inc., a
detailed analysis of the each work area used by staff has been made to determine the direct usage of
space by each entity.

Sea Studios, Inc. has only two employees currently, XXXXXXXXX , and XXXXXXXXXXX,
XXXXXXXXX, who utilize approximately 8% of the direct work spaces. It has been determined
that Sea Studios Foundation currently uses approximately 92% of the direct work spaces. The
common areas shared by both entities (kitchen, bathroom, receptions, etc) shave been allocated
to each entity based on these direct usage percentages.

As a result of this analysis, the portion of the cost of shared space allocated to SSF is
XXXXXXXX and to Sea Studios, Inc. XXXXXX.

It is the position of the Foundation that this allocation is a reasonable and fair rent of the space
occupied by the Foundation, and a competitive arrangement that could not be improved in the
local marketplace.




                                                                                                              5
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

        Email Hotline
            oig@nsf.gov

           Telephone
           703-292-7100

             Toll-free
          1-800-428-2189

                Fax
           703-292-9158

               Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
